           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   SUPPLEMENTAL SECURITY INCOME
RECIPIENTS WITH EXCESS INCOME AND/OR
             RESOURCES

      July 2008   A-01-08-18022




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      July 23, 2008                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Recipients with Excess Income and/or Resources
           (A-01-08-18022)


           OBJECTIVE
           Our objective was to determine whether bank data can be used to identify Supplemental
           Security Income (SSI) recipients who may not be eligible for payments because they
           have income and/or resources that exceed the allowable limitations set by the Agency.

           BACKGROUND
           SSI is a nation-wide, Federal cash assistance program administered by the Social
           Security Administration (SSA) that provides a minimum level of income to financially
           needy individuals who are aged, blind or disabled. 1 No individual shall be considered
           eligible for SSI payments for any period during which such individual has income or
           resources that exceed the allowable limit amounts established under The Social
           Security Act. 2 For example, an unmarried SSI recipient cannot have countable
           resources exceeding $2,000 in any given month. In addition, relevant information will
           be verified from independent or collateral sources to ensure such benefits are only
           provided to eligible individuals and the amounts of such benefits are correct. 3




           1
               The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           2
               The Social Security Act § 1611(a), 42 U.S.C. § 1382(a), 20 C.F.R. § 416.202.
           3
               The Social Security Act § 1631(e), 42 U.S.C. § 1383(e), 20 C.F.R § 416.207.
Page 2 - The Commissioner


SSI recipients are required to report events and changes of circumstances that may
affect their eligibility and payment amounts—including changes in income and
resources. 4 SSA has implemented several proactive measures to help identify SSI
recipients with excess income and/or resources, such as

     processing redeterminations periodically—generally every 1 to 6 years—to
      determine whether recipients are still eligible to receive SSI payments;
     conducting a data match with the Internal Revenue Service three times a year to
      identify non-wage income that was not previously reported to SSA;
     contracting with a third-party vendor to assist in retrieving electronic bank data to
      detect unreported bank accounts; 5 and
     testing an automated monthly telephone wage reporting system to reduce
      unreported changes in wages.

While conducting our audit of Supplemental Security Income Recipients with Automated
Teller Machine Withdrawals Indicating They Are Outside the United States
(A-01-07-17036), 6 we identified bank statements containing large account balances
and/or deposit amounts that appeared to exceed the allowable income/resource limits
established by SSA. Consequently, the individuals appeared to be most likely ineligible
for and/or overpaid SSI payments. To accomplish our objective, we conducted
additional analysis of the bank statements from the same random sample of
250 foreign-born recipients selected for our Foreign ATM audit. For those individuals
with large deposit amounts or bank balances, we requested that SSA’s Office of
Operations contact the recipients to determine whether they were ineligible for, and/or
overpaid, SSI. 7 (For additional scope and methodology information, see Appendix B of
this report.)




4
    The Social Security Act §1631(e)(1), 42 U.S.C. § 1383(e)(1); 20 C.F.R. § 416.701; 20 C.F.R. § 416.708.
5
 SSA began a financial account verification test project in 2005 for the State of New York and
subsequently rolled it out to the States of New Jersey and California. The Agency found that there was
value in receiving this electronic bank data, yet the Agency indicated its budget was not sufficient to
support a nation-wide implementation for the project.
6
    This audit report will be referred to as Foreign ATM throughout the rest of this document.
7
 Under SSA’s due process procedures, the Agency had to contact/attempt to contact the recipient before
assessing an overpayment and/or stopping payments. 20 C.F.R. § 416.558.
Page 3 - The Commissioner


RESULTS OF REVIEW
Based on our sample results, we estimate that overpayments totaling approximately
$408.9 million went undetected because about 68,966 recipients did not inform SSA of
their changes in income and/or resources. Additionally, we estimate SSA will not detect
approximately $169.2 million each year to recipients who have income and/or resources
above the maximum allowable amounts, if the Agency does not take action. 8

From our sample of 250 cases,
     17 were verified by SSA to have $100,796 in overpayments due to excess
      income/resources; 9
     232 were not overpaid due to excess income/resources; 10 and
     1 was pending case development with SSA staff as of May 2008.

RECIPIENTS WITH EXCESS INCOME AND/OR RESOURCES

Within our sample, our analysis of 24 months of bank statement data showed that
7 percent of the cases had excess income and/or resources the recipients did not report
to SSA. Furthermore, the Agency was able to identify additional months of income
and/or resource violations for some of these cases beyond our period of review. These
additional overpayments were identified based on personal declarations and additional
supporting documentation the Agency received directly from the SSI recipients when
reviewing these cases.

For example, SSA had processed a redetermination for an individual in June 2007.
During this redetermination, the recipient stated the average balance in her bank
account was $3 for the period March 2005 through April 2007, which SSA did not
verify. 11 We analyzed the individual’s bank statements for the 24-month period of
March 2005 through February 2007, which overlapped the similar period the previous
redetermination covered. During our review, we found the SSI recipient’s bank account
had a balance over $2,000 during October 2005 and February 2006, which appeared to

8
 This estimate is based on our finding that 17 cases were overpaid $41,699 during the last 12-month
period for which we obtained bank statements—March 2006 to February 2007. The estimated
overpayments and savings in this report only apply to our population of foreign-born SSI recipients with
direct deposit (and not the entire SS population).
9
 On average, the SSI recipients in our sample were overpaid $5,929—with a range of $151 to $13,336.
Additionally, the overpayments averaged 20 months—with a range of 2 months to 38 months.
10
  Of the 232 cases, 16 had large deposit amounts on their bank statements and/or large account
balances. However, upon further analysis, SSA determined that the recipients were not overpaid. For
example, the bank statements for one recipient showed numerous, consistent deposits that did not
appear to have been reported to SSA. However, further research showed that the deposits did not
belong to the SSI recipient, but to family members for whom the individual was fiscally responsible.
11
     SSA does not verify resources if the amount is less than or equal to the threshold amount of $1,250.
Page 4 - The Commissioner


violate the maximum allowable resource amount. At our request, SSA attempted to
contact the individual again in January 2008 and deemed the person had excess
resources during the two periods we identified and was therefore overpaid $1,624.
Subsequently, SSA assessed an additional overpayment of $8,588 because of resource
violations for the period May 2007 through February 2008, resulting in a total
overpayment of $10,212.

Redeterminations

One of SSA’s critical tools to detect and prevent SSI overpayments (such as those from
excess income and/or resources) is the redetermination. Redeterminations, required by
law, are periodic reviews of non-medical factors of SSI eligibility. 12 However, SSA
indicated it has had to scale back its redetermination workloads because of budget
constraints. 13 As a point of comparison, in Fiscal Year 1997, SSA processed 1.8 million
redeterminations, but 10 years later—in Fiscal Year 2007—SSA only processed
1 million redeterminations. SSA plans to process 1.2 million redeterminations in Fiscal
Year 2008, a significant increase over Fiscal Year 2007. We believe bank statement
data can be a useful tool in identifying those cases in need of a redetermination. 14

CONCLUSION AND RECOMMENDATION
Despite SSA’s efforts to identify income and resource violations, we estimate a
substantial number of violations have not been detected, resulting in millions of dollars
in overpayments.

SSA relies considerably on individuals self-reporting changes in their financial
situations. However, because reporting such events may result in ineligibility for SSI
payments, there is little incentive for recipients to report them to SSA. Therefore, we
believe SSA should explore alternatives that might help detect unreported income and
resources.

Consistent with our analysis and recommendation from the Foreign ATM audit, we
recommend that SSA

      1. Obtain electronic bank statement information, in the most cost-effective manner,
         to include bank account summary and transaction-level data so that additional
         income and resources may be identified and investigated for possible violations.




12
     The Social Security Act §1611(c)(1), 42 U.S.C. § 1382(c)(1); 20 C.F.R. § 416.204.
13
  The Agency began a test project in 2006 to revise the redetermination process by sending surveys to
select high-risk recipients to improve the identification of individuals who may require a redetermination.
14
  The Agency may request financial data pursuant to The Social Security Act § 1631(e)(1)(B),
42 U.S.C. § 1383(e)(1)(B); 20 C.F.R. § 416.207.
Page 5 - The Commissioner


AGENCY COMMENTS
SSA partially agreed with the recommendation. The Agency is in the planning and
analysis phase of a project called Access to Financial Institutions which could potentially
enable SSA to obtain and analyze electronic bank data and use it to identify possible
income/resource violations. (See Appendix C.)

OIG RESPONSE
Although SSA stated that it “partially agreed” with our recommendation, we believe the
Agency’s Access to Financial Institutions project is responsive to the intent of our
recommendation.




                                                 Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
ATM      Automated Teller Machine
C.F.R.   Code of Federal Regulations
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                                    Appendix B

Scope and Methodology
To accomplish our objective, we:

     Reviewed applicable sections of the Social Security Act and other relevant
      legislation, as well as the Social Security Administration’s (SSA) regulations, rules,
      policies and procedures.

     Used the same population data from the previous audit of Supplemental Security
      Income Recipients with Automated Teller Machine Withdrawals Indicating They Are
      Outside the United States (A-01-07-17036). The original population consisted of all
      1,014,185 foreign-born, U.S. citizens receiving Supplemental Security Income (SSI)
      payments via direct deposit as of May 2006. We then sorted the population by count
      of SSI recipients under each bank institution. See Table 1.

                                 Table 1: Total Population by Bank
                                                         Number of          Percent of All
                                Bank                     Recipients          Recipients
                 Bank A                                      253,696                25
                 Bank B                                      118,021                12
                 Bank C                                       82,618                 8
                 Bank D                                       48,734                 5
                 Bank E                                       45,542                 4
                 Subtotal (Top 5 Banks)                      548,611                54
                                     1
                 All Other Banks                             465,574                46
                 Total (All Banks)                          1,014,185              100

     Selected one of the top five banks from our population, Bank D, for further review.
      For audit purposes, we considered the characteristics and findings observed for
      Bank D to be representative of any bank providing services to the population of
      approximately 1 million recipients. Of the 48,734 SSI recipients with direct deposit at
      Bank D, we selected a random sample of 250 for detailed analysis.




1
    Each bank had less than 4 percent of the total population of SSI recipients.


                                                      B-1
     Subpoenaed bank statements on behalf of the 250 cases from Bank D for the period
      March 2005 through February 2007, pursuant to the Right to Financial Privacy Act. 2
      We examined the account balance and transaction history sections of the bank
      statements and identified any amount(s) that appeared to represent excessive
      income and/or resources.

     Requested that SSA’s Office of Operations contact those recipients, who had excess
      income and/or resources noted on the bank statements, to determine whether they
      were improperly paid.

We conducted our audit in Boston, Massachusetts, between March and
December 2007. We tested the data obtained in our audit and determined them to be
sufficiently reliable to meet our objective. The entities audited were SSA’s field offices
under the Deputy Commissioner for Operations. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

SAMPLE RESULTS AND ESTIMATES/PROJECTIONS

    Table 2: Population and sample size
    All foreign-born, United States citizens receiving SSI payments via             1,014,185
    direct deposit as of May 2006
    Population Size (recipients above with direct deposit at Bank D)                   48,734
    Percent of recipients with bank accounts at Bank D                                    5%
    Sample Size (recipients sampled from the population of Bank D                         250
    customers)


    Table 3: Number of SSI Recipients                        Results and
                                                                              Estimate in All
    with Undetected Income and/or                           Projections to
                                                                                  Banks
    Resource Violations                                        Bank D
    Identified in Sample                                                17
    Point Estimate                                                    3,314          68,966
    Projection Lower Limit                                            2,137
    Projection Upper Limit                                            4,881
      Note: All projections are at the 90-percent confidence level.




2
    12 U.S.C. § 3401, et seq.


                                                      B-2
    Table 4: Amount of Undetected SSI                        Results and
                                                                                     Estimate in All
    Overpayments Resulting from Income                      Projections to
                                                                                         Banks
    and/or Resource Violations                                 Bank D
    Identified in Sample                                              $100,796
    Point Estimate                                              $19,648,857           $408,904,995
    Projection Lower Limit                                      $10,344,610
    Projection Upper Limit                                     $28,953,104 3
      Note: All projections are at the 90-percent confidence level.



    Table 5: Amount of SSI Overpayments
                                                             Results and
    SSA Could Fail to Detect Due to                                                  Estimate in All
                                                            Projections to
    Income and/or Resource Violations                                                    Banks
                                                               Bank D
    Each Year
    Identified in Sample                                               $41,699
    Point Estimate                                                $8,128,675          $169,162,807
    Projection Lower Limit                                        $4,211,316
    Projection Upper Limit                                     $12,046,035 4
          Note: All projections are at the 90-percent confidence level.




3
 The spread between the lower and upper limits of this projection is from about $10 million to $29 million.
We determined both large and small dollar findings exist, as the 17 findings for this projection range from
$151 to $13,336. The mean of our 17 findings is $5,929 and the median is $5,760.
4
 The spread between the lower and upper limits of this projection is from about $4 million to $12 million.
We determined both large and small dollar findings exist, as the 17 findings for this projection range from
$49 to $6,078. The mean of our 17 findings is $2,453 and the median is $2,572.


                                                      B-3
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      June 27, 2008                                                         Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster       /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Supplemental Security Income Recipients
           with Excess Income and/or Resources” (A-01-08-18022)—INFORMATION

           We appreciate OIG’s efforts in conducting this review. Attached is our response to the
           recommendations.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                         C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME RECIPIENTS WITH EXCESS INCOME
AND/OR RESOURCES” (A-01-08-18022)

Thank you for the opportunity to review and provide comments on this draft report. We believe
it is important to note that this review was based on the examination of a limited sample of a
targeted portion of the Supplemental Security Income (SSI) population (foreign-born, U.S.
citizens receiving SSI payments via direct deposit). In our opinion, the results cannot be
generalized to the population of SSI recipients overall.

We take the stewardship of the SSI program very seriously. We explore all options for ensuring
the integrity of the program, including electronic verification of bank account information when
appropriate and cost effective. We have taken proactive steps to detect when SSI recipients have
excess income or resources, including implementing data exchanges with the Internal Revenue
Service and other government agencies. In addition, as mentioned in the report, we have
increased the number of redeterminations we plan to process in fiscal year 2008.

Recommendation 1

Obtain electronic bank statement information, in the most cost-effective manner, to include bank
account summary and transaction-level data, so that additional income and resources may be
identified and investigated for possible violations.

Comment

We partially agree. We are in the planning and analysis phase of the Access to Financial
Institutions (AFI) project. AFI could potentially automate our financial institution verification
process. The goal of this project is to have banks provide SSA with “first of the month” account
balances on selected individuals so that we can determine if they remain within the resource
limits necessary to continue receiving SSI benefits. When fully implemented, we plan to expand
the use of the system to field offices nationwide. However, AFI and current business policy do
not support transaction-level requests. Including transaction-level detail of bank information
would require significant systems changes and additional funding. In addition, we do not believe
the transaction-level data is a reliable indicator of excess resources. Relying on this information
could result in unproductive leads that would divert field office resources that are already
strained. For example, in a joint-account situation, an SSI recipient could have income deposited
by a co-owner mistakenly counted as their income. The process of rebutting ownership of these
funds is very labor intensive for field office personnel.




                                               C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division (617) 565-1765

   Jeffrey Brown, Audit Manager (617) 565-1814

   David Mazzola, Audit Manager (617) 565-1807

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Kevin Joyce, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-08-18022.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
